                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION



Office of Inspector General—Office of Audit




                                              DISLOCATED WORKER RETRAINING
                                              DEMONSTRATION GRANT AWARDED TO
                                              CONSORTIUM FOR WORKER EDUCATION, INC.




                                                               Date Issued: December 9, 2004
                                                               Report Number: 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant



Table of Contents
                                                                                                                  Page

EXECUTIVE SUMMARY ................................................................................................. i

ASSISTANT INSPECTOR GENERAL’S REPORT.......................................................... 1

EXHIBITS:

         A. SCHEDULE OF REPORTED COSTS............................................................. 5

         B. PROGRAM OUTCOMES ................................................................................ 6


APPENDICES:

         A. BACKGROUND ............................................................................................. 9

         B. OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA ....................... 11

         C. ACRONYMS AND ABBREVIATIONS ......................................................... 13




U. S. Department of Labor – Office of Inspector General
Report No. 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant


Executive Summary
This report summarizes the results of our performance audit of a $1.7 million Dislocated
Worker Retraining Demonstration Grant awarded to the Consortium for Worker
Education, Inc. (CWE). The purpose of the grant was to create a skill development
pathway in the artisan baking industry in New York City that would be sustained by the
partners and replicated in other locations.

The audit objectives were to determine if:

   •   a baking training facility was established;

   •   participants served were eligible for the program;

   •   applicable cost principles were followed; and

   •   program outcomes were measured, achieved, and reported.

We found that a baking facility was established as stipulated in the grant and sampled
costs claimed by CWE were reasonable, allocable, and allowable in accordance with
applicable cost principles. In addition, sampled participants were eligible for the
program, and goals for participants served and wage replacement were achieved.
However, CWE officials stated that placement goals were not achieved due to the
downturn of the economy after the terrorist attacks of September 11, 2001.




U. S. Department of Labor – Office of Inspector General                                  i
Report No. 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant

U.S. Department of Labor                            Office of Inspector General
                                                    Washington, DC. 20210




                            Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for
 Employment and Training
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

This report provides the results of our performance audit of a $1.7 million (Exhibit A) Job
Training Partnership Act (JTPA) demonstration grant awarded to the Consortium for
Worker Education, Inc. (CWE). The purpose of the grant was to create a skill
development pathway in the artisan baking industry in New York City that would create
jobs for 310 New Yorkers, be sustained by the partners, and be replicable in other
locations.

The audit objectives were to determine if:

      •   a baking training facility was established;

      •   participants served were eligible for the program;

      •   applicable cost principles were followed; and

      •   program outcomes were measured, achieved, and reported.

AUDIT RESULTS

I.        Was a baking training facility established?

A baking training facility was established in Long Island City, New York. We verified the
existence and cost of a judgmentally selected sample of training equipment purchased
under the grant.

II.       Were participants eligible for the program?

Sampled participants served were eligible for the program. CWE’s grant stipulated that
participants would be eligible based on whether applicants were either dislocated
workers referred from Worker Career Centers or non-managerial incumbent workers
from the baking industry referred by participating employers or unions. A sample of 34
participant files revealed that participants served came from these designated areas.

U. S. Department of Labor – Office of Inspector General                                   1
Report No. 02-05-201-03-340
                                                           Consortium for Worker Education, Inc.
                                               Dislocated Worker Retraining Demonstration Grant

III.       Were applicable cost principles followed?

Sampled costs claimed by CWE for the period June 30, 2000, to June 30, 2002, were
reasonable, allocable, and allowable in accordance with Office of Management and
Budget, Circular A-122 and 29 CFR 95.

IV.        Were program outcomes measured, achieved and reported?

Enrolled participants at the Artisan Baking Center (ABC) received training to obtain,
retain and improve employment experience in the New York City baking industry. CWE
exceeded its goals for participants served and dislocated worker average hourly wage
for participants that were placed. However, CWE fell significantly short of achieving its
goals in average number of hours of training, and job placement. (See Exhibit B.) CWE
officials stated the main reason goals were not achieved was the devastating impact on
the baking industry as a result of the terrorist attacks on September 11th, precisely when
the center was about to open. Other reasons cited by CWE officials for not meeting the
grant’s goals included:

       •   Goals for participants receiving retraining after 3 months, course completion, and
           off-site training hours at the ABC were reduced due to limited participation of
           students who could not receive training during work hours, as employers required
           their employees to fulfill business needs when bakeries were downsizing in
           reaction to the poor economy;

       •   The dislocated worker job placement goal was not achieved due to an economic
           downturn resulting in bakery closings and lay-offs; and

       •   On-the-job training was canceled because employers were reluctant to train in
           their respective bakeries for fear of exposing industry trade secrets.




Elliot P. Lewis
February 20, 2004




                                           U. S. Department of Labor – Office of Inspector General
2                                                                    Report No. 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant




Exhibits




U. S. Department of Labor – Office of Inspector General   3
Report No. 02-05-201-03-340
                                Consortium for Worker Education, Inc.
                    Dislocated Worker Retraining Demonstration Grant




    THIS PAGE INTENTIONALLY LEFT BLANK




                U. S. Department of Labor – Office of Inspector General
4                                         Report No. 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant

                                                                           Exhibit A


                        Consortium for Worker Education, Inc.
                  Dislocated Worker Retraining Demonstration Grant
                              Schedule of Reported Costs
                     For the Period June 30, 2000 to June 30, 2002




                            Category                Budget       Costs
                    Staff Salaries                 $355,787    $115,679
                    Staff Fringe Benefits           135,199      43,958
                    Bakers Instructions                          42,465
                    Professional Services                       443,070
                    Contractual                     862,220     390,456
                    Equipment                       253,000     267,393
                    Rent                                        124,586
                    Supplies                         98,574     121,869
                    Consultants                                  56,145
                    Maintenance & Repairs                        27,638
                    Utilities & Telephone                        30,725
                    Furniture & Fixture                          19,482
                    Security                                      7,074
                    Printing                                     13,215
                    Miscellaneous                    37,120      32,255
                    Total                        $1,741,900   $1,736,010




U. S. Department of Labor – Office of Inspector General                           5
Report No. 02-05-201-03-340
                                                   Consortium for Worker Education, Inc.
                                       Dislocated Worker Retraining Demonstration Grant

                                                                              Exhibit B


                     Consortium for Worker Education, Inc.
               Dislocated Worker Retraining Demonstration Grant
                               Program Outcomes
                  For the Period June 30, 2000 to June 30, 2002



                  Category                    Grant Goals           Results
    Participants Served                            310                336
    Dislocated Workers Average Hourly
    Wage                                          $8.99              $9.57
    Average Number of Training Hours Off-
    site                                           160                 38
    Dislocated Worker Job Placement                60                  24
    Number of On-the-Job Training Hours            100                 0




6                                 U. S. Department of Labor – Office of Inspector General
                                                              Report No. 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant




Appendices




U. S. Department of Labor – Office of Inspector General   7
Report No. 02-05-201-03-340
                                Consortium for Worker Education, Inc.
                    Dislocated Worker Retraining Demonstration Grant




    THIS PAGE INTENTIONALLY LEFT BLANK




8              U. S. Department of Labor – Office of Inspector General
                                           Report No. 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant

                                                                              Appendix A



Background

On June 28, 2000, ETA issued grant agreement number AN-10810-00-60 in the amount
of $1.7 million to the CWE for a project entitled Dislocated Worker Retraining
Demonstration Grant. This grant was authorized under the authority of the Job Training
Partnership Act, Title III. The purpose of the grant was to create a skill development
pathway in the artisan baking industry in New York City that would create good jobs, be
sustained by the partners, and be replicable in other locations.

Founded in 1985, CWE is a private, not-for-profit agency committed to enriching the
lives of all workers, their families, and their communities through both traditional and
web-based education, economic development, and empowerment programs locally,
nationally, and globally. CWE offers a variety of employment, education, training and
child care programs for union members, dislocated workers and public assistance
recipients. CWE is a consortium of 46 New York City Central Labor Council affiliated
unions and locals.

The grant stated the program would provide training for 310 participants: 75 dislocated
workers, 75 skill-upgrade workers, 150 incumbent semi-skilled workers, and 10
journeymen bakers. Also, CWE planned for participants to receive 160 hours of
instruction over a 6-month period and 100 hours on-the-job training over 18 months.
The curriculum would build on apprenticeship standards, which had been developed in
the past by the Baking Industry Labor Management Apprenticeship Council of Greater
New York.




U. S. Department of Labor – Office of Inspector General                                    9
Report No. 02-05-201-03-340
                                 Consortium for Worker Education, Inc.
                     Dislocated Worker Retraining Demonstration Grant




     THIS PAGE INTENTIONALLY LEFT BLANK




10               U. S. Department of Labor – Office of Inspector General
                                            Report No. 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant

                                                                            Appendix B



Objectives, Scope, Methodology,
and Criteria

Objectives

The audit objectives were to determine if:

   •    a baking training facility was established;

   •    participants served were eligible for the program;

   •    applicable cost principles were followed; and

   •    program outcomes were measured, achieved, and reported.



Scope


The U.S. Department of Labor, Office of Inspector General (OIG), conducted a
performance audit of the Dislocated Worker Retraining Demonstration Grant awarded to
CWE for the period June 30, 2000, to June 30, 2002, under grant number AN 10810-00-
60. We audited cumulative costs and performance outcomes reported through June 30,
2002. Cumulative costs reported by CWE for the period were $1,736,010. CWE served
a total of 336 participants.

To test the allowability of costs, we obtained the general ledger and judgmentally
selected and tested $704,592, or 41 percent, of reported costs of $1,736,010 allocated
to the grant.

To determine if eligibility requirements had been properly followed, we selected a
statistical sample of 34 participants, from among the 336 enrolled in the program, and
tested support for eligibility.

We conducted audit fieldwork from October through November 2003 at CWE
headquarters located in New York, NY, and the ABC located in Long Island City, NY.


U. S. Department of Labor – Office of Inspector General                                  11
Report No. 02-05-201-03-340
                                                        Consortium for Worker Education, Inc.
                                            Dislocated Worker Retraining Demonstration Grant


                                                                   Appendix B, Continued

Methodology

We obtained an understanding of internal controls regarding invoice approval and
eligibility through inquiries with appropriate personnel, inspection of relevant documents,
and observations of CWE’s operations. The nature and extent of testing was based on
the auditors’ judgment.

For CWE’s costs, we examined vouchers and supporting documentation including
invoices and payroll records. We used judgmental sampling to test individual account
transactions.

For equipment purchases, we obtained a listing of all equipment purchased by CWE
under this grant, and judgmentally selected a sample of purchases to test. For our
sample we obtained a copy of the invoice noting the date, invoice amount, description of
equipment, and delivery location. We performed a physical inventory, at the ABC, of
the sampled purchases.

To determine if eligibility requirements had been properly applied, we statistically
selected a sample of 34 participants from among the 336 enrolled in the program. We
selected 10 percent from each of the four categories (dislocated workers, journeymen
level bakers, semi-skilled and skill-upgrade workers). CWE’s grant stipulated that
participants would be eligible based on two determining factors - whether applicants
were (1) dislocated workers referred from Worker Career Centers or (2) non-managerial
incumbent workers from the baking industry referred by participating employers or the
union. CWE provided us with a copy of the sampled participants’ files. For dislocated
workers, we determined if there was a referral from the One-Stop Career Center. For
journeymen level bakers and incumbent workers, we verified that the participants were
from a member organization.

The audit was performed in accordance with Government Auditing Standards, issued by
the Comptroller General of the United States. Audit results were discussed with CWE
management on February 20, 2004.


Criteria

The following criteria were used in accomplishing our audit:

The Job Training Partnership Act

Code of Federal Regulations, Title 29

Office of Management and Budget, Circular A-122
12                                      U. S. Department of Labor – Office of Inspector General
                                                                   Report No. 02-05-201-03-340
Consortium for Worker Education, Inc.
Dislocated Worker Retraining Demonstration Grant




                                                          Appendix C




Acronyms and Abbreviations

ABC            Artisan Baking Center

CWE            Consortium for Worker Education, Inc.

ETA            Employment and Training Administration

JTPA           Job Training Partnership Act

OIG            Office of Inspector General




U. S. Department of Labor – Office of Inspector General           13
Report No. 02-05-201-03-340
